NO. _ _ _ _ _ __

IN THE
SUPREME COURT OF THE UNITED STATES

THOMAS JAVION GUERRANT

Petitioner,
V.

UNITED STATES OF AMERICA

Respondent,

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
The petitioner has previously been granted leave to proceed in forma
pauperis in the following courts:
U.S. District Court for the Western District of Virginia,
Case No. 7:19-cr-00039, by oral order entered April 29,
2019;and
U.S. Court of Appeals for the Fourth Circuit, Case No. 204358, by written order dated July 8, 2020.
Because appellate counsel was appointed pursuant to the Criminal Justice
Act of 1964, 18 U.S.C. ยง3006A, no affidavit or declaration of the petitioner is
attached. See S. Ct. R. 39.1.

Respectfully submitted,

D

Randy V. Cargill
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
For the Western District of Virginia
210 First Street, Suite 400
Roanoke, Virginia 24011
(540)777-0880
Randy _cargill@fd.org

July 7, 2021

